Report No. D-2010-089        September 30, 2010




   Agreed-Upon Procedures for Reviewing the
      FY 2010 Civilian Payroll Withholding
       Data and Enrollment Information
 Additional Copies
 To obtain additional copies of this report, visit the Web site of the Department of
 Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
 Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703)
 604-8932.

 Suggestions for Audits
 To suggest ideas for or to request future audits, contact the Office of the Deputy
 Inspector General for Auditing at (703) 604-9142 (DSN 664-9142), fax (703) 604-8932
 or by mail:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                     400 Army Navy Drive (Room 801)
                     Arlington, VA 22202-4704




Acronyms and Abbreviations Used in the Report and the Attachments
CSRS                 Civil Service Retirement System
DFAS                 Defense Finance and Accounting Service
DOE                  Department of Energy
EPA                  Environmental Protection Agency
FEGLI                Federal Employees Group Life Insurance
FEHB                 Federal Employee Health Benefits
FERS                 Federal Employees Retirement System
HHS                  Health and Human Services
ODO                  Other Defense Organizations
OPF                  Official Personnel File
OPM                  Office of Personnel Management
RITS                 Retirement and Insurance Transfer System
VA                   Department of Veterans’ Affairs
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704



                                                                 September 30, 2010


The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Theodore Roosevelt Federal Building
1900 E Street NW, Room 6400
Washington, D.C. 20415-0001
Subject: Independent Auditor’s Report on the Agreed-Upon Procedures for Reviewing
         the FY 2010 Civilian Payroll Withholding Data and Enrollment Information

Dear Mr. McFarland:

We performed the procedures described in the Attachment, which were agreed to by the
Chief Financial Officer and the Inspector General of the U.S. Office of Personnel
Management (OPM). We performed these procedures solely to assist in assessing the
reasonableness of the employee withholdings and employer contributions that the
Defense Finance and Accounting Service (DFAS) reported on Standard Form 2812,
“Report of Withholdings and Contributions for Health Benefits, Life Insurance, and
Retirement,” for the pay periods ending August 29, 2009; October 24, 2009; and
February 27, 2010; and reported in the “Supplemental Semiannual Headcount Report,”
as of September 1, 2009, and March 1, 2010. The reports submitted by DFAS included
information for the following entities listed in Appendix A of the Office of
Management and Budget Bulletin No. 07-04, “Audit Requirements for Federal
Financial Statements,” as amended: the Department of Defense (DOD), Department of
Energy (DOE), Department of Health and Human Services (HHS), Department of
Veterans’ Affairs (VA), and the Environmental Protection Agency (EPA).

By using Audit Command Language software, we randomly selected a sample of 360
employees from the October 24, 2009, pay period from the eight DFAS payroll data
files (Army, Navy, Air Force, Other Defense Organizations [ODO], DOE, HHS, VA,
and the EPA). We compared the sample of 360 employees’ pay and withholdings and
agency contributions in the Defense Civilian Pay System to the documentary support
in the Official Personnel Files (OPF). Of the 360 OPFs, 180 represented DOD
employees, 45 represented DOE employees, 45 represented HHS employees,
45 represented VA employees, and 45 represented EPA employees.
Attachment: Agreed-Upon Procedures
Performed and Results
This section contains the OPM AUPs and the results of completing those procedures.

Overall Procedure
For employee benefit withholding and contributions, obtain the Agency Payroll
Provider’s September 2009 and March 2010 Semiannual Headcount Report submitted to
OPM and a summary of Retirement and Insurance Transfer System (RITS) submissions
for September 2009 and the current fiscal year. For each program (retirement, health,
and life) select a total of three RITS submissions for September 2009 and the current
fiscal year; two will coincide with the September 2009 and March 2010 Semiannual
Headcount Report. Obtain payroll information for the periods covered by the RITS
submissions selected.

Procedure 1.
Compare RITS submission data with payroll information by performing the following
procedures (Note: For cross-servicing agencies, if the internal controls are the same for
all agencies serviced, it is only necessary to perform this procedure for one agency.):

Procedure 1.a.
Recalculate the mathematical accuracy of the payroll information.

Procedure 1.b.
Recalculate the mathematical accuracy of each RITS submission for the payroll
information selected in step 1.a.

Procedure 1.c.
Compare the employee withholding information at the aggregate level for Retirement,
Health Benefits, and Life Insurance (as adjusted for reconciling items) shown on the
payroll information obtained in step 1.a. to the related amounts shown on the RITS
submission for the corresponding period.

Report any differences for each of the Retirement, Health Benefits, and Life Insurance
(categories) for step 1.c. that are over one percent of the aggregate amount reported for
each of the three categories. Obtain from management a management official name,
an explanation, telephone number, and an email address for the differences above the
one percent threshold.

Results
There were no differences greater than one percent for this comparison.



                                                                                Attachment
                                                                               Page 1 of 11
Procedure 2.
(See Procedures 2.a.-j.)

Procedure 2.a.
Randomly select a total of 25 individuals who were in the payroll system for all three of
the RITS submissions selected above that meet all the following criteria:

       •   covered by the Civil Service Retirement System (CSRS) or the Federal
           Employees Retirement System (FERS);
       •   enrolled in the Federal Employees Health Benefit Program (FEHB);
       •   covered by Basic Life Insurance; and
       •   covered by at least one Federal Employees’ Group Life Insurance (FEGLI)
           optional coverage (Option A, B or C).

Procedure 2.b
Obtain the following documents, either in electronic or hard copy format, from the
Official Personnel File (OPF) for each individual selected in step 2.a. Hard copies can
be originals or certified copies.

       •   All Notifications of Personnel Actions (SF-50) covering the pay periods in the
           RITS submissions chosen;
       •   The Health Benefits Election Form (SF-2809) covering the pay periods in the
           RITS submissions chosen or, if applicable, obtain a report (via the agency
           personnel office) from the agency’s automated system that allows participants
           to change benefits, (e.g., Employee Express), for any Health Benefits
           transactions in that system for the individuals selected in step 2.a. (note: a
           new SF-2809 is needed only if an employee is changing health benefit plans,
           therefore, the form could be many years old); and
           o For Health Benefits, compare date of transaction with date on the certified
               copy of the SF-2809 or the agency’s automated system report obtained
               above to identify whether the health benefit information to be used in the
               step 2.f. covers the pay periods in the RITS submissions chosen.
       •   The Life Insurance Election Form (SF-2817) covering the pay periods in the
           RITS submission chosen (note: a new SF-2817 is needed only if an employee
           is changing life insurance coverage, therefore the form could be many years
           old).

Results
We identified 26 documents from the Army, ODO, VA, and EPA that were either
missing or incomplete. DOE auditors identified four missing or incomplete documents
from DOE, and HHS auditors identified two missing or incomplete documents from
HHS. The following table identifies the number and type of documents missing or
incomplete from the respective organization.


                                                                               Attachment
                                                                              Page 2 of 11
      Number and Type of Missing or Incomplete Documents by Organization
          Organization             SF-50            SF-2809            SF-2817
        Army                         1                                    1
        ODO                                                               1
        DOE                           1                                   3
        HHS                                                               2
        VA                            2                 8                 9
        EPA                           1                 3

Procedure 2.c.
For each individual selected in step 2.a., compare the base salary used for all payroll
purposes and upon which withholdings and contributions generally are based to the base
salary reflected on the employee’s SF-50. Report any differences resulting from this step
and obtain management’s explanation for the differences.

Results
We found one difference for Army, two for Navy, one for ODO, three for VA, and one
for EPA. In some cases, the applicable SF-50s were either missing or retroactive pay
adjustments or calculation errors requiring adjustments by DFAS caused differences
between the pay system amounts and our calculations. In other cases, either Human
Resources or DFAS management did not respond or provide further explanation.

Procedure 2.d.
For Retirement for each individual selected in step 2.a., compare the retirement plan code
from the employee’s SF-50 to the plan code used in the payroll system. Report any
differences resulting from this step and obtain management’s explanation for the
differences.

Results
We found one difference for Army. Human Resource management explained the
difference stating that the Army employee had several issues with his retirement code.
For example, his retirement code was not changed correctly at the time that his temporary
appointment changed to career-conditional. Later, he was mistakenly placed under
FERS, then CSRS-Special, and eventually corrected in April 2010 to CSRS Partial
(CSRS Offset).

Procedure 2.e.
For each individual selected in step 2.a., calculate the retirement amount to be withheld
and contributed for the plan code from the employee’s SF-50, by multiplying the base
salary from the employee’s SF-50 by the official withholding and contribution rates
required by law. Compare the calculated amounts to the actual amounts withheld and
contributed for the retirement plan. Report any differences resulting from this step and
obtain management’s explanation for the differences.
                                                                               Attachment
                                                                              Page 3 of 11
Results
We found two differences for Army, three for Navy, one for ODO, two for EPA, and
three for VA. In some cases, the applicable SF-50s were missing, an erroneous code was
used on the SF-50, or retroactive pay adjustments or calculation errors requiring
adjustments by DFAS caused differences between the pay system amounts and our
calculations. In other cases, either Human Resources or DFAS management did not
respond or provide further explanation.

Procedure 2.f.
For Health Benefits for each individual selected in step 2.a, compare the employee
withholdings and agency contributions to the official subscription rates issued by OPM
for the plan and option elected by the employee, as documented by a Health Benefits
Election Form (SF-2809) in the employee’s OPF or automated system that allows the
participant to change benefits (e.g., Employee Express). Report any differences resulting
from this step and obtain management’s explanation for the differences.

Results
We found one difference for Navy, eight for VA, and four for EPA. In some cases, the
applicable SF-2809s were missing or retroactive pay adjustments or calculation errors
requiring adjustments by DFAS caused differences between the pay system amounts and
our calculations. In other cases, either Human Resources or DFAS management did not
respond or provide further explanation.

Procedure 2.g.
For Life Insurance for each individual selected in step 2.a, confirm that Basic life
Insurance was elected by the employee by inspecting the Life Insurance Election Form
(SF-2817) documented in the employee’s OPF. Report any differences resulting from
this step and obtain management’s explanation for the differences.

Results
We did not find any differences for this comparison.

Procedure 2.h.
For each individual selected in step 2.a., calculate the withholding and contribution
amounts for Basic Life Insurance using the following:

       •   For employee withholdings: Round the employee’s annual base salary up to
           the nearest thousand dollars and add $2,000. Divide this total by 1,000 and
           multiply by the rate required by law.
       •   For agency contributions: Divide the employee withholdings calculated above
           by two.




                                                                                Attachment
                                                                               Page 4 of 11
Compare the calculated employee withholdings and agency contributions to the actual
amounts withheld and contributed for Basic Life Insurance. Report any differences
resulting from this step and obtain management’s explanation for the differences.

Results
We found one difference for Army, three for Navy, one for ODO, two for EPA, and two
for VA. In some cases, the applicable SF-50s or SF-2817s were missing or incomplete,
or retroactive pay adjustments or calculation errors requiring adjustments by DFAS
caused differences between the pay system amounts and our calculations. In other cases,
either Human Resources or DFAS management did not respond or provide further
explanation.

Procedure 2.i.
Also, for Life Insurance for each individual selected in step 2.a., compare optional
coverage elected as documented on the SF-2817 in the employee’s OPF to the optional
coverage documented in the payroll system. Report any differences resulting from this
step and obtain management’s explanation for the differences.

Results
We identified one difference for the Navy and nine for VA. DOE auditors identified four
differences for DOE. HHS auditors identified two differences. In some cases, the
applicable SF-2817s or SF-50s were missing or incomplete. In other cases, either Human
Resources or DFAS management did not respond or provide further explanation.

Procedure 2.j.
For each individual selected in step 2.a., calculate the withholding amounts for optional
life insurance using the following:

       •   For Option A: Locate the employee’s age group using the age groups provided
           for Option A in the FEGLI Program Booklet. The withholding amount to be
           used is the rate listed in the FEGLI Program Booklet for that age group.
           Compare the calculated amount to the amount withheld for Option A Life
           Insurance. Report any differences resulting from this step and obtain
           management’s explanation for the differences.

       •   For Option B: Inspect the SF-2817 to obtain the number of multiples chosen
           for Option B. Locate the employee’s age group using the age groups provided
           for Option B in the FEGLI Program Booklet. Round the employee’s annual
           rate of basic pay up to the next 1000, divide by 1000, and multiply by the rate
           for the respective age group. Multiply this amount by the number of multiples
           chosen for Option B Life Insurance. Compare the calculated amount to the
           amount withheld for Option B Life Insurance. Report any differences
           resulting from this step and obtain management’s explanation for the
           differences.

                                                                               Attachment
                                                                              Page 5 of 11
       •   For Option C: Inspect the SF-2817 to obtain the number of multiples chosen
           for Option C. Locate the employee’s age group using the age groups provided
           for Option C in the FEGLI Program Booklet. Multiply the rate for the age
           group by the number of multiples chosen for Option C Life Insurance.
           Compare the calculated amount to the amount withheld for Option C Life
           Insurance. Report any differences resulting from this step and obtain
           management’s explanation for the differences.

Results
We identified one difference for the Army, four for the Navy, one for ODO, twelve for
VA, and two for EPA. DOE auditors identified five differences. HHS auditors identified
two differences. In some cases, the applicable SF-2817s or SF-50s were missing or
incomplete, or retroactive pay adjustments or calculation errors requiring adjustments by
DFAS caused differences between the pay system amounts and our calculations. In other
cases, either Human Resources or DFAS management did not respond or provide further
explanation.

Procedure 3.
Randomly select a total of 10 employees who have no Health Benefits withholdings from
the payroll information corresponding to the three RITS submissions selected above and
perform the following for each employee selected.

Procedure 3.a.
Obtain SF-2809s covering the pay periods in the RITS submissions chosen, either in
electronic or hard copy format, from the selected employee’s OPF or, if applicable,
obtain a report (via the agency personnel office ) from the agency’s automated system
that allows participants to change benefits, (e.g., Employee Express), for any Health
Benefit transactions in that system for the individuals selected. Hard copies can be
originals or certified copies. Inspect the documentation (that is, SF-2809 or the agency’s
system-generated report) to identify whether health benefits coverage was not elected.
This can be identified in the following ways:

           •   absence of an SF-2809 in the OPF and no election of coverage made
               through the agency’s automated system that allows participants to change
               benefits (e.g., Employee Express); or
           •   an SF-2809 in the OPF with Section E checked (indicating cancellation
               of coverage) and no later election of coverage through the agency’s
               automated system that allows participants to change benefits
               (e.g., Employee Express); or
           •   cancellation of coverage through the agency’s automated system that
               allows participants to change benefits (e.g., Employee Express) and no
               later election of coverage with an SF-2809.




                                                                               Attachment
                                                                              Page 6 of 11
Procedure 3.b.
Compare the result in step 3.a. to the RITS submissions. Report any differences resulting
from this step and obtain management’s explanation for the differences.

Results
We identified one difference for Army and one for VA. The applicable SF-2809s were
missing or incomplete.

Procedure 4.
Randomly select a total of 10 employees who have no Life Insurance withholdings from
the payroll information corresponding to the three RITS submissions selected above and
perform the following for each employee selected.

Procedure 4.a.
Obtain the SF-2817s covering the pay periods in the RITS submissions chosen, either in
electronic or hard copy format, from the selected employee’s OPF. Hard copies can be
originals or certified copies. Inspect the SF-2817 to identify that the employee waived or
cancelled Basic Life Insurance coverage.

Procedure 4.b.
Compare the result in step 4.a. to the RITS submissions. Report any differences
resulting from this step and obtain management’s explanation for the differences.

Results
We identified one difference for the National Guard and one for VA. DOE auditors
identified one difference, and HHS auditors identified one difference. The waivers were
either missing or incomplete.

Procedure 5.
Calculate the headcount reflected on the September 2009 and March 2010 Semiannual
Headcount Report selected, as follows.

Procedure 5.a.
Obtain existing payroll information (from step 1.a.) supporting each Supplemental
Semiannual Headcount report. If existing payroll data is not available, obtain a payroll
system query that summarizes detailed payroll data supporting each Supplemental
Semiannual Headcount Report, as follows:

         •     Benefit Category (see Semiannual Headcount Report).
         •     Dollar Amount of withholdings and contributions.




                                                                               Attachment
                                                                              Page 7 of 11
         •     Number Enrolled (deductions made/no deductions).
         •     Central Personnel Data File Code.
         •     Aggregate Base Salary.

Procedure 5.b.
Recalculate the Headcount reflected on each Semiannual Headcount Report. If an
electronic file is not available, a suggested method of recalculating the Headcount is as
follows: (1) estimate the number of employees per payroll register page by counting the
employees listed on several pages, (2) count the number of pages in the payroll register,
and (3) multiply the number of employees per page by the number of pages, or count
(using a computer audit routine) the number of employees on the payroll data file for the
period.

Procedure 5.c.
Compare the payroll information obtained in step 5.a. and the calculated headcount from
step 5.b. to the information shown on each respective Semiannual Headcount Report.

Procedure 5.d.
Report any differences (i.e., gross rather than net) greater than two percent between the
headcount reporting on each respective agency Semiannual Headcount Report and
payroll information from step 5.a. and the calculated Headcount from step 5.b. Obtain
from management a management official name, telephone number, an e-mail address,
and an explanation for the differences.

Results
There were no differences greater than two percent for this comparison.

Procedure 6.
Calculate employer and employee contributions for Retirement, Health Benefits, and Life
Insurance as follows:

Procedure 6.a.
Calculate Retirement withholdings and contributions for the three pay periods selected in
step 1.a., as follows:

Procedure 6.a.i.
Multiply the CSRS and FERS payroll base by the withholding and employer contribution
rates required by law.




                                                                                Attachment
                                                                               Page 8 of 11
Procedure 6.a.ii.
Compare the calculated totals from step 6.a.i. to the related amounts shown on the RITS
submissions. Report any differences (i.e., gross rather than net) between the calculated
amounts and the amounts reported on the RITS submissions greater than five percent of
the amounts on the RITS submission, and obtain management’s explanation for the
differences.

Results
There were no differences greater than five percent for this comparison.

Procedure 6.b.
Calculate employee withholdings and employer contributions for Health Benefits for the
three pay periods selected in step 1.a., as follows:

Procedure 6.b.i.
Multiply the number of employees enrolled in each Health Benefits plan and plan option
by the employee withholdings and employer contributions for the plan and option.

Procedure 6.b.ii.
Sum the totals in step 6.b.i. and compare the result with the Health Benefit withholding
and contribution amounts shown on the RITS submissions. Report any differences
(i.e., gross rather than net) between the calculated amounts and the amounts reported on
the RITS submissions greater than five percent of the amounts on the RITS submission,
and obtain management’s explanation for the differences.

Results
There were no differences greater than five percent for this comparison.

Procedure 6.c.
Calculate the Basic Life Insurance employee withholdings and employer contributions
for the three pay periods selected in step 1.a., as follows:

Procedure 6.c.i.
Obtain a payroll system query from APP personnel to obtain the total number of
employees with Basic Life Insurance coverage and the aggregate annual basic pay for all
employees with Basic Life Insurance.

Procedure 6.c.ii.
For employee withholdings: Add the product of 2,000 times the number of employees
with Basic Life Insurance coverage from step 6.c.i above to the aggregate annual basic
pay for all employees with Basic Life Insurance from step 6.c.i above to calculate the
estimated total Basic Life Insurance coverage. Divide this calculated total by 1,000 and
multiply by the withholding rate required by law. The Life Insurance withholding rates
can be found in the FEGLI Program Booklet on OPM’s website.
                                                                              Attachment
                                                                             Page 9 of 11
Procedure 6.c.iii.
Compare the result in step 6.c.ii. to the withholdings for Basic Life Insurance coverage
reported on the RITS submission. Report any difference (i.e., gross rather than net)
between the estimate and the amount of withholdings reported on the RITS submission
greater than five percent of the amounts on the RITS submission, and obtain
management’s explanation for the difference.

Results
There were no differences greater than five percent with the exception of our calculation
for VA, for pay period ending February 27, 2010. The difference amounted to $189,879
(7.09%). Because of limited system capabilities and staffing resources, DOD auditors
and DFAS management were not able to resolve this difference. In addition, DFAS
management indicated that formulas used in OPM’s Agreed-Upon Procedures need to be
updated to reflect the latest changes to base pay calculations.

Procedure 6.c.iv.
For agency contributions: Divide the results of step 6.c.ii. by two—this approximates
agency contributions, which are one-half of employee withholdings. Compare this result
to the amount reported on the RITS submission. Report any differences (i.e., gross rather
than net) between the estimated amount and the actual amount reported on the RITS
submission greater than five percent of the amounts on the RITS submission, and obtain
management’s explanation for the differences.

Results
There were no differences greater than five percent except for VA, for pay period ending
February 27, 2010. The difference amounted to $96,040 (7.16%). Because of limited
system capabilities and staffing resources, DOD auditors and DFAS management were
not able to resolve the VA difference. In addition, DFAS management indicated that
formulas used in OPM’s Agreed-Upon Procedures need to be updated to reflect the latest
changes to base pay calculations.

Procedure 6.d.
Calculate the Option A, Option B and Option C Life Insurance coverage withholdings for
the three pay periods selected by using detail payroll reports used to reconcile the RITS
reports in Step 1. In addition to the information used for step 1, the reports should
include the employee's date of birth, annual rate of basic pay, and number of multiples
selected for Option B and C. Note: While similar to step 2.j., the calculation at this step
is for the entire amount reported on the RITS submissions for the three pay periods
selected, as opposed to the sample of 25 employees in step 2.j.

Procedure 6.d.i.
Multiply the number of employees in each age group by the appropriate rate for Option A
in accordance with the rates for age groups provided in the FEGLI Program Booklet.


                                                                               Attachment
                                                                             Page 10 of 11
Procedure 6.d.ii.
Compare the result in step 6.d.i. to the amounts for Option A reported on the RITS
submissions. Report any differences (i.e., gross rather than net) greater than two percent
of the amounts on the RITS submission, and obtain management’s explanation for the
differences.

Results
There were no differences greater than two percent for this comparison.

Procedure 6.d.iii.
Segregate the reports for Option B and Option C insurance into the age groups shown in
the FEGLI Program Booklet. For Option B, round the employee's annual rate of basic
pay up to the next 1000, divide by 1000, multiply by the rate for the age group, multiply
this by the number of multiples:

(Annual rate of basic pay (rounded up) /1000*rate*multiples).

For Option C, multiply the rate for the age group by the number of multiples chosen for
each employee.

Procedure 6.d.iv.
Compare the result in step 6.d.iii. to the amounts for Option B and Option C,
respectively, reported on the RITS submissions. Report any differences (i.e., gross
rather than net) greater than two percent of the amounts on the RITS submission for
Option B or Option C, and obtain management’s explanation for the differences.

Results
There were no differences greater than two percent for this comparison, with the
exception of the HHS and Overseas DOD Option B calculations and the HHS Option C
calculations. The HHS Option B calculations created a difference of 2.02% and affected
pay period ending August 29, 2009. The Overseas DOD Option B calculations created a
difference of 2.72% and affected pay period ending February 27, 2010. DOD auditors
and DFAS management were not able to resolve the HHS and Overseas DOD Option B
differences. DFAS management indicated that formulas used in OPM’s Agreed-Upon
Procedures need to be updated to reflect the latest changes to base pay calculations. The
HHS Option C calculations created a difference of 3.99% and affected pay period ending
October 24, 2009. DFAS management explained that a retroactive refund of premiums
caused the difference.




                                                                               Attachment
                                                                             Page 11 of 11
